The Department of Health and Human Services And The Department of Justice Health Care Fraud and Abuse Control Program Annual Report For FY 2003
The Department of Health and Human ServicesAndThe
Department of JusticeHealth Care Fraud and Abuse Control ProgramAnnual
Report For FY 2003  DECEMBER 2004
TABLE OF CONTENTS
Executive
Summary Introduction Monetary
Results  Program Accomplishments  Department
of Health and Human Services  Office of Inspector
General Office of the General Counsel
Administration on Aging  Centers for
Medicare and Medicaid ServicesDepartment of Justice
United States Attorneys  Civil
Division  Criminal Division  Civil
Rights Division  Appendix: Federal Bureau of Investigation
- Mandatory FundingGlossary of Terms
GENERAL NOTE All years are
fiscal years unless otherwise noted in the text.
EXECUTIVE SUMMARY
The Health Insurance Portability and Accountability Act of 1996 (HIPAA) established
a national Health Care Fraud and Abuse Control Program (HCFAC or the Program),
under the joint direction of the Attorney General and the Secretary of the Department
of Health and Human Services (HHS)(1), acting through
the Department's Inspector General (HHS/OIG), designed to coordinate federal,
state and local law enforcement activities with respect to health care fraud and
abuse. In its seventh year of operation, the Program's continued success again
confirmed the soundness of a collaborative approach to identify and prosecute
the most egregious instances of health care fraud, to prevent future fraud or
abuse, and to protect program beneficiaries.Monetary Results
In 2003, the Federal government won or negotiated more than $1.8 billion in judgments
and settlements in health care fraud matters. As a result of enforcement actions,
judgments, settlements, and administrative proceedings, the Federal government
collected more than $1.4 billion and distributed more than $1.03 billion during
FY 2003. Over $500 million that was collected during the FY 2003 reporting period
was distributed in early 2004 and the distribution of these funds will be described
in greater detail in the Annual Report for 2004(2).
Of the amount distributed to victim agencies in FY 2003, approximately $723 million
was returned to the Medicare Trust Fund and $151.6 million was returned to the
Centers for Medicare and Medicaid Services ("CMS") as the Federal share of Medicaid
restitution. The HCFAC account has returned over $5.69 billion to the Medicare
Trust Fund since the inception of the program in 1997.Enforcement ActionsFederal
prosecutors filed 362 criminal indictments in health care fraud cases in 2003.
A total of 437 defendants were convicted for health care fraud-related crimes
during the year. There were also 1,277 civil matters pending, and 231 civil cases
filed in 2003. HHS excluded 3,275 individuals and entities from participating
in the Medicare and Medicaid programs, or other federally sponsored health care
programs, most as a result of convictions for crimes relating to Medicare or Medicaid,
for patient abuse or neglect, or as a result of licensure revocations.
INTRODUCTION
ANNUAL REPORT OF THE ATTORNEY GENERAL AND THE SECRETARY
DETAILING EXPENDITURES AND REVENUES UNDER THE HEALTH CARE FRAUD AND ABUSE
CONTROL PROGRAM FOR FISCAL YEAR 2003   As Required
by Section 1817(k)(5) of the Social Security Act
STATUTORY BACKGROUND The Social Security
Act section 1128C(a), as established by the Health Insurance Portability and Accountability
Act of 1996 (P.L. 104-191, HIPAA or the Act), created the Health Care Fraud and
Abuse Control Program, a far-reaching program to combat fraud and abuse in health
care, including both public and private health plans.The Act requires that
an amount equaling recoveries from health care investigations -- including criminal
fines, forfeitures, civil settlements and judgments, and administrative penalties,
but excluding restitution, compensation to the victim agency, and relators' shares
-- be deposited in the Medicare Trust Fund. All funds deposited in the Trust Fund
as a result of the Act are available for the operations of the Trust Fund(3).The
Act appropriates monies from the Medicare Trust Fund to an expenditure account,
called the Health Care Fraud and Abuse Control Account (the Account), in amounts
that the Secretary and Attorney General jointly certify as necessary to finance
anti-fraud activities. The maximum amounts available for certification are specified
in the Act. Certain of these sums are to be used only for activities of HHS/OIG,
with respect to Medicare and Medicaid programs. In 2003, the Secretary and the
Attorney General certified $240.558 million for appropriation to the Account.
A detailed breakdown of the allocation of these funds is set forth later in this
report. These resources generally supplement the direct appropriations of HHS
and the Department of Justice (DOJ) that are devoted to health care fraud enforcement,
though they provide the sole source of funding for Medicare and Medicaid enforcement
by HHS/OIG. (Separately, the Federal Bureau of Investigation (FBI) received $114
million from HIPAA which is discussed in the Appendix.)Under the joint
direction of the Attorney General and the Secretary, the Program's goals are:
to coordinate Federal, state and local law enforcement efforts relating to
health care fraud and abuse;   to conduct investigations, audits
and evaluations relating to the delivery of and payment for health care in the
United States;   to facilitate enforcement of all applicable
remedies for such fraud;   to provide guidance to the health
care industry regarding fraudulent practices; and   to establish
a national data bank to receive and report final adverse actions against health
care providers.The Act requires the Attorney General and the Secretary
to submit a joint annual report to the Congress which identifies both:
the amounts appropriated to the Trust Fund for the previous fiscal year under
various categories and the source of such amounts; and  the amounts
appropriated from the Trust Fund for such year for use by the Attorney General
and the Secretary and the justification for the expenditure of such amounts.This
annual report fulfills the above statutory requirements.
MONETARY RESULTS As
required by the Act, HHS and DOJ must detail in this Annual Report the amounts
deposited and appropriated to the Medicare Trust Fund, and the source of such
deposits. In 2003, over $1.03 billion was deposited with the Department of the
Treasury and CMS, transferred to other federal agencies administering health care
programs, or paid to private persons during the fiscal year. In addition, over
$500 million collected in 2003 was distributed in the first quarter of fiscal
year 2004 and will be described in greater detail in the Annual Report for 2004(4).
The following chart provides a breakdown of the 2003 transfers/deposits:
Total Transfers/Deposits by Recipient FY 2003
Department of the Treasury
HIPAA Deposits to the Medicare Trust Fund
Gifts and Bequests0
Amount Equal to Criminal
Fines*2,474,513
Civil Monetary Penalties7,149,975
Amount Equal to Asset
Forfeiture **0
Amount Equal to Penalties and Multiple
Damages232,882,476
Centers for Medicare and Medicaid
Services    OIG
Audit Disallowances - Recovered42,472,162
Restitution/Compensatory
Damages437,911,954
Sub Total$722,891,080
Restitution/Compensatory Damages to Federal Agencies
Centers
for Medicare and Medicaid Services14,684,625
Office of Personnel Management16,544,238
TRICARE4,198,984
Other Agencies
5,662,788
Sub Total$41,090,635
Relators'
Payments ***$269,563,831
TOTAL ****$1,033,545,546
*Due to a debt collection reporting
system transition during FY 2003, reporting of criminal fines to the Department
of Treasury for FY 2003 was limited to the 1st and 2nd quarters. Criminal fines
recovered in the 3rd and 4th quarters of FY 2003 will be included in FY 2004 criminal
fine collections. **This includes only forfeitures under 18 U.S.C. § 1347,
a federal health care fraud offense that became effective on August 21, 1996.
Not included are forfeitures obtained in numerous health care fraud cases prosecuted
under federal mail and wire fraud and other offenses. ***These are funds awarded
to private persons who file suits on behalf of the Federal government under the
qui tam provisions of the False Claims Act, 31 U.S.C. § 3730(b). ****Funds
are also collected on behalf of state Medicaid programs and private insurance
companies; these funds are not represented here. The above
transfers include certain collections, or amounts equal to certain collections,
required by HIPAA to be deposited directly into the Medicare Trust Fund. These
amounts include:  Gifts and bequests made unconditionally to the Trust
Fund, for the benefit of the Account or any activity financed through the Account;
Criminal fines recovered in cases involving a Federal health care
offense, including collections under section 24(a) of title 18, United States
Code (relating to health care fraud);  Civil monetary penalties
in cases involving a Federal health care offense;  Amounts resulting
from the forfeiture of property by reason of a Federal health care offense, including
collections under section 982(a)(6) of title 18, United States Code; and
Penalties and damages obtained and otherwise creditable to miscellaneous
receipts of the general fund of the Treasury obtained under sections 3729 through
3733 title 31, United States Code (known as the False Claims Act, FCA), in cases
involving claims related to the provision of health care items and services (other
than funds awarded to a relator, for restitution or otherwise authorized by law).HIPAA
also requires an independent biannual review of these deposits by the General
Accounting Office (GAO).  PROGRAM
ACCOMPLISHMENTS    EXPENDITURES
In the seventh year of operation, the Secretary and the Attorney General
certified $240.558 million as necessary for the Program. The following chart gives
the allocation by recipient:
FY 2003 ALLOCATION OF HCFAC
APPROPRIATION  (Dollars in thousands)
Organization
Allocation
Department
of Health and Human Services
Office of Inspector General(5)
160,000
Office of the General Counsel4,527
Administration on Aging3,250
Centers for Medicare and Medicaid
Services23,366
Assistant Secretary for Budget, Technology and Finance0
Sub Total$191,143
Department of Justice
United States Attorneys30,400
Civil Division14,459
Criminal Division1,580
Civil Rights Division1,976
Nursing Home Initiative1,000
Sub Total$49,415
TOTAL$240,558
ACCOMPLISHMENTSOverall RecoveriesIn 2003,
the Federal government won or negotiated more than $1.8 billion in judgments and
settlements in health care fraud matters. As a result of enforcement actions,
judgments, settlements, and administrative proceedings, the Federal government
was able to distribute during 2003 $1.03 billion of the funds collected. Approximately
$723 million of this amount was returned to the Medicare Trust Fund, and $151.6
million was recovered as the Federal share of Medicaid restitution. Some of the
judgments, settlements, and administrative impositions in 2003 will result in
distributions in future years, just as some of the distributions in 2003 are attributable
to actions from prior years. As noted previously, over $500 million collected
in fiscal year 2003 was distributed early in fiscal year 2004.This fiscal
year, HHS and DOJ have brought to successful conclusion the investigation and
prosecution of numerous health care fraud schemes. These achievements confirm
once again the importance of coordination between HHS and DOJ to maximize recoveries
for taxpayer-funded health care programs victimized by fraud and/or abuse, and
to promote prompt detection, punishment and deterrence of those who exploit health
care programs for personal or corporate gain. In addition to the enforcement actions
described in this report, numerous audits, evaluations and other coordinated efforts
have yielded substantial recoveries of overpaid funds, protected vulnerable beneficiaries,
and prompted changes in Federal health care programs that reduce susceptibility
to fraud. During FY 2003, the many significant accomplishments of the HCFAC Program
included the following:Pharmaceutical Companies AstraZeneca
Pharmaceuticals and Zeneca, Inc. (AstraZeneca), a major pharmaceutical manufacturer,
pled guilty and agreed to pay $355 million to resolve criminal and civil fraud
allegations arising from its marketing of Zoladex, a drug used to treat prostate
cancer. As a result of an investigation conducted by the United States Attorney
for the District of Delaware, working with the HHS/OIG, the Food and Drug Administration
(FDA), the Defense Criminal Investigative Service and the FBI, AstraZeneca pled
guilty to violating the Prescription Drug Marketing Act by causing false claims
to be filed for Zoladex that was furnished to urologists as free samples. In addition,
the company agreed to pay more than $265 million to settle allegations that it
caused false claims to be filed with Medicare, Medicaid, TRICARE and the Railroad
Retirement Board, and another $24.9 million for failing to pay proper rebates
owed to states under the Medicaid Drug Rebate Program. AstraZeneca also entered
into a rigorous 5-year Corporate Integrity Agreement (CIA) with the HHS/OIG, under
which the company agreed to affirmatively report certain drug prices to Medicare
and Medicaid, and to take other steps to promote proper billing practices.
Bayer Corporation paid more than $257 million in global settlement
of the FCA and criminal allegations that it attempted to evade paying required
rebates to state Medicaid programs for sales of two drugs, Cipro (an antibiotic)
and Adalat (an anti-hypertensive). In what is known as a "lick and stick scheme,"
Bayer allegedly sold re-labeled drugs to a large HMO at significant discount,
then concealed the discounts and so avoided having to pay millions of dollars
in rebates to Medicaid. Bayer also pled guilty to charges filed by the United
States Attorney for the District of Massachusetts that it violated the Federal
Food, Drug and Cosmetic Act by failing to notify FDA that it was producing private
label Cipro. The company also agreed to extend an ongoing CIA with the HHS/OIG,
and strengthen its terms to ensure that Bayer will accurately report its best
price information to the government.  GlaxoSmithKline (GSK),
In a similar case, GSK settled its civil liability under the FCA for repackaging
Paxil (an anti-depressant) and Flonase (a nasal spray) for sale at deep discounts
to the same large HMO. Again, the company concealed these discounts, and so underpaid
rebates due to the Medicaid program. GSK agreed to pay more than $87 million,
and to comply with the terms of a CIA designed to ensure that GSK will accurately
reports its "best price" information to the government in the future.
The monies recovered in the AstraZeneca, Bayer and GlaxoSmithKline settlements
were shared among the Federal Government, 49 states, the District of Columbia,
and the Public Health Service.  Pfizer Corporation and Subsidiaries,
Warner-Lambert and Parke-Davis (Pfizer), agreed to pay $49 million to resolve
alleged false claims arising from sale of the cholesterol-lowering drug, Lipitor.
The company allegedly failed to report accurately to CMS its "best price" as required
under the Medicaid Drug Rebate Program. By overstating its price, the company
allegedly retained more than $20 million in rebates owed to the Medicaid program.
Pfizer also entered into a five-year CIA under which Pfizer must certify its process
for determining best price, and adopt internal safeguards to prevent improper
reporting in the future. Prescription Drug Fraud
A South Florida defendant was sentenced after conviction at trial to 10½
years' incarceration for her role as the mastermind behind a conspiracy that fraudulently
billed Medicare for over $20 million worth of prescription drugs. The conspiracy
centered around four Miami pharmacies that illegally manufactured prescription
aerosol drugs. The pharmacies sold the illegally manufactured drugs although in
some cases, only labels or half-portions were actually delivered to DME companies
that billed Medicare directly under Medicare rules that allow for payment for
drugs taken by way of medical equipment. The fraudulently manufactured drugs were
intended for bogus patients who had been paid for use of their Medicare numbers;
approximately 1400 patients in the Miami area were involved in the scam. To enable
the fraud, physicians were paid to sign blank prescriptions, and, in almost every
case, the physicians never examined the patients or even looked at fraudulent
charts that were concocted to fool Medicare inspectors. Five other individuals
were also convicted at trial and sentenced to terms of incarceration for their
participation in the conspiracy; eighteen other defendants entered pleas of guilty
and were sentenced in connection with the scheme.   A South Florida
urologist pleaded guilty to 59 counts of health care fraud and unlawful distribution
of prescription drugs. Between July 2000 and November 2001, he prescribed Lupron,
a drug used for the palliative treatment of advanced prostatic cancer, to a number
of patients, and undertook to administer it to the patients in the form of injections.
However, the defendant did not administer the prescribed and requisite dosages
of Lupron to at least 32 patients who came to him for treatment. The physician
billed the patients and their health insurance carriers for the cancer treatments,
regardless of whether the drug was actually administered. In addition, he unlawfully
distributed Lupron wholesale through a series of sales totaling more than $1.5
million. In pleading guilty, he was sentenced to 51 months of incarceration and
3 years of supervised release in addition to also surrendering his medical license.
Internet Pharmacy Fraud In October 2003, a Texas
pharmacist was convicted of a drug king-pin count and for money laundering for
his role in conspiring to illegally dispense hydrocodone in an Internet pharmacy
operation he ran. The pharmacist, who owned Friendly Pharmacy located in Texas
and MainStreet Pharmacy located in Oklahoma, employed three doctors and paid them
$40-100 per signed prescription. Customers of the internet websites would fill
out a simple questionnaire, request their drug of choice (in most cases, hydrocodone
- a Schedule III controlled substance) and then pay both a "doctor consultation
fee" and the fee for the prescription drugs. The doctors reported they never declined
a prescription, and never examined the patients. One doctor admitted at trial
that he never reviewed the questionnaires filled out by the customers and another
doctor fell asleep while signing the prescriptions. Neither of the online pharmacies
had any way of verifying the age of the recipient. Unlike when the patient sees
the doctor, a minor can easily log onto a website and fill out an inaccurate age.
Tragically, a La Mesa, California high school honors student and athlete died
at home from an overdose of Vicodin ordered from one of the pharmacies.
The pharmacist faces a mandatory 20 year to life sentence. All of the other participants
were either found guilty by a jury or pled guilty. The government also obtained
a $5.6 million asset forfeiture judgment against the pharmacist.  A
South Florida husband and wife were sentenced to terms of 37 months and 24 months
imprisonment, respectively, after being convicted by a jury of unlawfully distributing
prescription drugs through the Internet. The defendants sold powerful prescription
pain killers through web sites operated from their home without requiring a physician's
review or a prescription and placed no restrictions on the quantities or frequency
with which customers could purchase drugs. In an effort to evade detection by
law enforcement, the defendants cut out the manufacturer's lot numbers placed
on each of the drug containers they sold, thereby making the drugs untraceable;
concealed their identities through using false names; used 32 variations of false
return addresses on packages; and advertised that they were an overseas company.
In little over a year, the defendants earned in excess of $1.2 million in gross
revenues, all of which went to an off-shore bank account in the Cayman Islands.
Hospitals HCA Inc. (formerly known as
Columbia/HCA and HCA-The Healthcare Company), entered a settlement agreement with
the Federal government, marking the end of the most comprehensive multi-agency
health care fraud investigation of a provider ever undertaken by federal enforcement
authorities. Under the agreement, HCA paid $631 million plus interest to resolve
civil liability for alleged false claims arising from a variety of practices,
including false cost reports to Medicare, Medicaid and TRICARE, and kickbacks.
When added to earlier criminal pleas and a 2001 FCA settlement, and a separate
settlement with the CMS, the government recovered a total of $ 1.7 billion from
HCA. The settlement agreement also incorporates the terms of a Corporate Integrity
Agreement with the HHS/OIG, under which HCA will maintain comprehensive compliance
measures into the year 2009.  Lovelace Health Systems, Inc.
(Lovelace) agreed to pay the government $24.5 million and implement certain integrity
requirements to resolve its liability under the FCA. The Cigna-owned hospital
and health maintenance organization allegedly falsified its Medicare cost reports
for the ten years ending in 1998. Among the allegations, Lovelace improperly shifted
costs of its health maintenance organization (HMO) patients to Medicare and otherwise
inflated Medicare reimbursement. The investigation stemmed from a qui tam
filed by an employee of a financial consultant that prepared cost reports for
Lovelace.  St. Luke's Subacute Hospital and Nursing Center, Inc.
and its president and CEO were convicted of six counts of Medicare fraud. The
officer directed his employees to manipulate the company's books to inflate the
amount of reimbursable nursing time spent on Medicare patients. In 1997, 1998
and 1999, he submitted reimbursement claims to Medicare for nursing costs that
overstated St. Luke's Hospital's entitlement by nearly $3 million. He then directed
an employee to create false nursing schedules in an attempt to hide inflated nursing
costs from Medicare auditors, a fraud that was uncovered when law enforcement
compared the false nursing schedules to true nursing schedules that were seized
during a 1996 search warrant.  Rapid City Regional Hospital
paid $6 million to settle civil allegations arising from unlawful patient referrals
from oncologists with whom the hospital had financial relationships. The parties
allegedly violated the Ethics in Patient Referrals Act, better known as the "Stark"
law, which is designed to ensure that patients receive the benefit of unbiased
medical judgment from their physicians. The statute prohibits doctors from referring
patients to clinical laboratories, diagnostic centers, and other facilities in
which they hold financial interests, and prohibits hospitals from paying for referrals
from physicians with whom they have financial relationships. The FCA case involved
allegations that the hospital had supplied Oncology Associates with office space,
staff services, and other benefits to induce the oncologists to refer their cancer
patients to the hospital. The physician practice, Oncology Associates, also paid
the United States an additional $525,000 for overbilling Medicare for their patients'
office visits.  Public Health Trust of Miami-Dade County, d.b.a.
Jackson Memorial Hospital paid the United States $16.8 million to settle civil
allegations that it had submitted duplicate claims for the same services as both
outpatient clinic and inpatient services.  McLeod Regional Medical
Center of Pee Dee, Inc. paid the United States $15.9 million to settle civil
allegations that it submitted false claims to the Medicare, Medicaid and TRICARE
programs for hospital and home health services ordered by physicians with whom
McLeod, and its for-profit subsidiary, McLeod Physician Services, had unlawful
compensation arrangements. The FCA suit alleged that McLeod's financial relationships
with the physicians violated the Stark law and the Anti-Kickback Statute because
the hospital had agreed to pay the physicians more than fair market value for
their practices, then paid them salaries exceeding fair market value, to induce
and maintain referral relationships with the physicians. The Government also alleged
that McLeod included false claims for Medicare reimbursement of unallowable costs
on the hospital's cost reports as a means to offset losses incurred in acquiring
the practices.  Five hospital subsidiaries of Tenet Healthcare
Corporation agreed to pay over $4.15 million to settle civil allegations that
they "upcoded" Medicare patients' pneumonia and septicemia diagnoses. Hospitals
receive Medicare reimbursement by assigning codes that reflect a patient's diagnosis
at the time of discharge. Upcoding is the practice of assigning a code that reflects
a falsely high level of patient acuity and medical service in order to generate
higher reimbursement than the provider otherwise would receive. The five Florida
hospitals involved were Coral Gables Hospital, Coral Gables; Florida Medical Center,
Fort Lauderdale; Hialeah Hospital, Hialeah; Hollywood Medical Center, Hollywood;
and Parkway Regional Medical Center, Miami.  Columbia University
paid $5.1 million to settle civil charges that, for more than a decade, the university
improperly billed the Medicaid program for deliveries and other obstetrical procedures
conducted at New York-Presbyterian Hospital's Allen Pavilion. The Government alleged
that the Obstetrics and Gynecology Department at the hospital routinely had physicians
whose services would be reimbursed by Medicaid claim they themselves had treated
patients when, in fact, the patients were seen by health care providers ineligible
for reimbursement, such as midwives. Durable Medical Equipment
20 defendants pleaded guilty in Arizona to engaging in a fraud scheme in which
they falsely billed Medicare for more than $25 million in DME. The defendants
created approximately 30 sham DME entities in the western United States. For 3½
years, they used unlawfully obtained Medicare information to falsely bill Medicare
for DME either not provided or not ordered by a physician, including expensive
motorized wheelchairs, hospital beds with special mattresses, and products used
for delivering nutrients directly into the gastrointestinal tract.  A
South Florida DME supplier was sentenced to 84 months in prison and ordered to
pay nearly $14.5 million in restitution for two schemes to defraud the Medicare
and Medicaid programs. The court also entered a more than $14.8 million forfeiture
order. The defendant and others fraudulently billed Medicare and Medicaid for
items such as motorized wheelchairs and alternating pressure mattresses. To date,
12 corporations and 14 individual defendants have pleaded guilty in connection
with the schemes, and one person was convicted after a jury trial. The supplier
also entered into a civil settlement agreement with the United States on behalf
of himself and 15 business entities, resulting in a consent judgment being entered
against him and the entities for more than $29 million.  The Texas
owner and operator of two DME companies was convicted at trial, sentenced to 120
months incarceration, and ordered to pay $384,984 in restitution for defrauding
the Medicare and Medicaid programs. The defendant billed Medicare and Medicaid
for items that were never supplied to patients, including alternating pressure
mattresses, hydraulic patient lifts, and lymphedema pumps. In other instances
in which items were supplied, she submitted billings with false patient diagnoses
for patients who had not been evaluated by a physician and did not qualify for
the product. The defendant's husband pled guilty in connection with the same scheme
and was sentenced to 12 months and one day of incarceration.  A physician
convicted for obstruction of justice and mail fraud was sentenced to nearly 3
years imprisonment, and ordered to pay a $7,500 fine and be deported upon his
release. A fugitive since 1988, the physician performed cursory physical exams
for a DME company which used these exams to justify prescriptions for transcutaneous
electrical nerve stimulation (TENS) units to Medicare beneficiaries. However,
the physician never actually performed the thorough examination required, nor
did he advise the beneficiaries on the use and risks of the TENS units. The physician
also signed blank certificates of medical necessity so that the TENS units could
be billed to Medicare. His codefendants were previously sentenced for their roles
in the scheme. Physicians A Coral Gables, Florida,
eye surgeon was convicted of 90 counts of Medicare fraud and ordered to pay $812,216
in restitution and $50,000 in fines for billing the Medicare program for services
he did not provide. The surgeon fabricated medical charts and billing records,
and submitted claims to Medicare, for various diagnostic tests he never conducted
and laser eye surgeries that he never rendered. In many instances, elderly Medicare
patients were led to believe that they had serious eye diseases that could result
in blindness if not treated when in fact they did not have such illnesses. At
one of the clinics, the defendant regularly claimed to have performed ophthalmic
services when the equipment necessary to perform the procedures was not even present
at the medical clinic on the claimed dates of service.  Six Southern
California physicians pleaded guilty to health care fraud for engaging in a scheme
to defraud United States insurance companies. The defendants, who were Mexican
nationals who practiced in Mexico, filed claims with United States insurance companies
for medical treatment, services, and supplies supposedly provided to United States
citizens in Mexico; in reality, the treatment, services, and supplies were not
provided as claimed. The defendants were arrested as part of an FBI undercover
operation dubbed "Operation Golden Tooth" in which the undercover agent - posing
as a participant in the scam - persuaded the doctors to travel to the United States,
where they were arrested upon arrival. Home Health
Caremark, Rx, Inc. (formerly MedPartners, Inc.) paid the United States
$7.5 million to settle civil allegations that false home health care claims had
been submitted by a former MedPartners' subsidiary, AmCare, Inc., a Florida home
health agency. Home Health Dialysis Holdings,
Inc. paid $4,102,098 to settle an FCA action alleging that the company knowingly
submitted requests to Medicare for medically unnecessary laboratory tests and
blood draws. Dialysis Holdings, Inc. and its predecessor corporations provided
dialysis services to thousands of terminally ill Massachusetts patients afflicted
with end stage renal disease (ESRD), whose laboratory costs are covered by Medicare.
Dialysis conspired with a clinical laboratory to perform unnecessary blood draws
on ESRD patients, create thousands of referrals for laboratory tests that were
not needed, split automated chemistry panels of tests so as to avoid a Medicare
rule designed to control lab test costs, and deceive physicians and laboratory
employees into unknowing participation in the scheme.  Dianon Systems,
Inc. paid $4.8 million to resolve allegations of Medicare and TRICARE billing
fraud under the FCA. Dianon, which conducts tests to detect various types of cancer,
had billed for medically unnecessary DNA tests and second-opinion consultations
and reports it failed to provide.  Mediq, Inc. and its subsidiaries
(collectively, Mediq), agreed to pay $1 million to resolve their civil liability
under the FCA. The case stemmed from allegations that Mediq billed Medicare for
transtelephonic electrocardiograms (ECGs) when no such tests were performed. Instead,
Medic performed standard ECGs, a service that is reimbursed at a significantly
lower rate. Ambulance Services A New York ambulance
company operator was sentenced to 78 months in prison, was ordered to pay restitution
of more than $57 million, and was subject to an $8 million forfeiture order for
health care fraud arising from his fraudulent operation of several ambulance and
ambulette services. In March 1990, the HHS/OIG excluded the individual from participation
in the Medicare and Medicaid programs for a period of 25 years. In order to evade
this program exclusion, he established secret ownership of five ambulance and
ambulette companies in Brooklyn, New York, and continued to bill Medicare and
Medicaid for patient transportation. He also offered and paid bribes and kickbacks
to employees of various hospitals to induce them to order ambulance and ambulette
services from his companies. Physical Therapists
Two former operators of Texas medical clinics pleaded guilty to conspiracy
to commit health care fraud, and paying kickbacks for the referral of Medicare
and Medicaid patients in connection with several schemes that resulted in more
than $11 million of false billings to Medicare and Medicaid. The defendants and
others operated six physical therapy clinics in the Houston area, and billed Medicare
and Medicaid for claims for physical therapy services never performed, claims
using a false diagnosis, and claims for services not ordered by a licensed physician
or not performed under the supervision of a licensed physician. As part of the
scheme, the defendants hired patient recruiters, known as "marketers," who were
paid a kickback for each patient referred to the clinics for physical therapy;
clinic employees were also paid kickbacks for referrals. Four co-defendants also
pleaded guilty to health care fraud in connection with this matter; three other
defendants, including two doctors, have proceeded to trial. Medicare
Contractors Blue Cross of California (Blue Cross),
a former Medicare fiscal intermediary, and its parent company, Wellpoint Health
Networks, Inc., agreed to pay $9.3 million to resolve their potential civil
and administrative liability for false claims. For ten years ending in 2000, Blue
Cross allegedly falsified data regarding its performance of health care provider
audits while under contract with CMS. The intermediary primarily falsified audit
start and completion dates entered into an audit tracking database. The government
alleged that these erroneous entries were intended to mislead CMS regarding its
performance of required audit work so as to obtain a favorable annual evaluation,
and to ensure renewal of its Medicare contract.  In Missouri, a director
and manager for a former Medicare contractor were sentenced for conspiring to
falsify and conceal information about errors made by the contractor. The director
was sentenced to 27 months in prison and fined $6,000; the manager was sentenced
to 3 months in prison. These former executives ordered the falsification of records,
beneficiary files, claims and other official documents, which, when reviewed by
CMS, gave the contractor the appearance of performing at a higher level of efficiency
and quality than was actually the case. This appearance of exemplary performance
enabled the contractor to secure and maintain its contract with the government
by being ranked for many years as one of the top 10 in the country. In June 2002,
the contractor agreed to pay the government $76 million for its alleged misconduct.
Quality of CareOne area in which collaboration among
the federal authorities responsible for health oversight has proved most effective
has been in enforcement and oversight of issues relating to quality of care, as
demonstrated by the following:  Prosecution:  Endo Vascular
Technologies, Inc. (EVT), a wholly-owned subsidiary of the medical device
manufacturer Guidant Corporation, pled guilty to 10 felonies and agreed to pay
$92.4 million as part of a global resolution of charges that it covered up malfunction
of its device used to treat aortic aneurysms. These incidents of malfunction included
12 deaths and more than 50 emergency surgeries. Under Federal law, a company must
submit a Medical Device Report to FDA every time its device may have caused serious
injury or death. EVT filed 172 such reports, but in its guilty plea, admitted
to failing to file reports in 2,600 additional incidents. Moreover, the government
contended that the company was aware of the incidents, since a company representative
was required to be present in the operating room each time the device was inserted.
This global resolution is among the first felony convictions for failing
to file Medical Device Reports with the FDA, and represents the largest dollar
amount ever paid by a defendant for such failure. The investigation was conducted
by the FDA and the FBI. In addition to the settlement agreement, Guidant and EVT
agreed to enter into a comprehensive compliance agreement with the HHS/OIG.
Redding Medical Center, Inc. (RMC), a hospital owned by Tenet Health
Systems Hospitals, Inc., agreed to pay $54 million in settlement of liability
for performing and billing Medicare, Medicaid and TRICARE for unnecessary cardiac
services for the time period 1997 through 2002. This represents the government's
largest recovery ever in a case alleging lack of medical necessity for surgeries.
RMC agreed to implement certain corporate compliance steps; nonetheless, possible
exclusion from Federal health care programs was not waived in the settlement.
The University of Chicago and Northwestern Memorial Hospitals,
agreed to settle charges in connection with their organ transplant programs. The
hospitals agreed to pay $115,000 and $23,587 respectively, to resolve charges
that the hospitals falsely diagnosed certain patients as more ill than they actually
were. Based on these exaggerated diagnoses, the patients were allegedly moved
ahead of others who were waiting for organs in that transplant region. The government
also charged that the hospital billed Medicare or Medicaid for medically unnecessary
services related to the overstated diagnoses. Exclusions:One
important mechanism for safeguarding the care provided to program beneficiaries
is through exclusions of providers and suppliers who have engaged in patient abuse
or neglect or fraud. During 2003, the HHS/OIG excluded more than 3,000 such individuals
from participation in Medicare, Medicaid and other Federal health care programs,
among them:  A Missouri pharmacist was sentenced to 30 years in prison
and ordered to pay more than $10 million in restitution and fines for diluting
chemotherapy drugs he prepared for cancer patients. In 2003, both the pharmacist
and his pharmacy were excluded from Medicare, Medicaid and other Federal health
care programs the pharmacist for 50 years and his pharmacy for 25 as a result
of this conviction. Such lengthy exclusions were justified by the pharmacist's
reckless disregard for the life-threatening consequences of his conduct.
A Kansas physician was excluded for 25 years based on his conviction for longstanding
fraud against Medicare and TRICARE. His scheme involved luring patients into unnecessary
surgeries based on false representations. The physician was also convicted of
perjury. The court sentenced him to 6 years in jail, and the state suspended and
then summarily revoked his medical license. Nursing Home Studies:Quality
of nursing home care remains an area of intense interest for HHS/OIG. In recent
years, the HHS/OIG conducted numerous studies assessing facets of the quality
of life and care in nursing homes. In 2003, these studies included the following:
Quality Assurance Committees (QA Committees): QA Committees are internal
organizations that provide a key point of accountability for ensuring quality
of care. Nearly all nursing homes were found to meet CMS requirements for committee
membership and frequency of meetings. QA Committees had access to information
they needed to assess care, but were nonetheless hampered by staff shortages,
turnover, and members who are inexperienced in committee work.  Pyschosocial
Services Oversight: Another inspection examined whether residents receive required
psychosocial services, including a comprehensive initial assessment and periodic
evaluations. Though most facilities employed a qualified social worker as required,
more than one third of residents had incomplete care plans. Where plans existed,
46 percent of residents did not receive all the psychosocial services outlined
in those plans. The HHS/OIG recommended enhanced oversight of this aspect of the
residential assessment and care plan.  National Ombudsman Reporting
System: Data was examined in the National Ombudsman Reporting System. It was found
that the data corroborated deficiencies in resident care. Complaints to Ombudsmen
are on the rise, with the highest frequency of nursing home complaints involving
resident care. Accidents and requests for assistance were the most common. Others
in the top dozen were: complaints of personal hygiene, medication administration
and symptoms unattended, and categories that include complaints of unexplained
bruises, medications not given, or failure to address a resident's changed condition.
The prosecutions and settlements discussed above and throughout this report
reflect the culmination of investigations that have been ongoing for several years.
A more detailed description of other accomplishments of the major Federal participants
in the coordinated effort established under HIPAA follows. While information in
this report is presented in the context of a single agency, most of the accomplishments
described herein reflect the combined efforts of HHS, DOJ and other partners in
the anti-fraud efforts.   FUNDING
FOR DEPARTMENT OF HEALTH AND HUMAN SERVICES Office
of Inspector General Certain of the funds appropriated
under HIPAA are, by law, set aside for Medicare and Medicaid activities of HHS/OIG.
During the seventh year of the Program, the Act provided that between $150 and
$160 million be devoted to these purposes. The Secretary and the Attorney General
jointly allotted $160 million to HHS/OIG in 2003, an increase of $15 million over
2002.HHS/OIG conducted or participated in 819 prosecutions or settlements
in 2003, of which 567, or 69 percent, were health care cases. A total of 3,275
individuals and entities were also excluded, many as a result of criminal convictions
for crimes related to Medicare or Medicaid (707); or to other health care programs
(130); for patient abuse or neglect (257); or as a result of licensure revocations
(1,747).In addition to the role played by the HHS/OIG's in the judgments
and settlements described in the Accomplishments section, HHS acted on HHS/OIG
recommendations and collected $42.5 million in disallowances of improperly paid
health care funds in 2003. HHS/OIG continues to work with CMS to develop and implement
recommendations to correct systemic vulnerabilities detected during HHS/OIG evaluations
and audits. These corrective actions often result in health care funds not expended
(that is, funds put to better use as a result of implemented HHS/OIG initiatives).
In 2003, such funds not expended amounted to more than $20.8 billion -- nearly
$16.9 billion in Medicare savings, and $3.9 billion in savings to the Medicaid
program.Focus on Quality of CareHHS/OIG investigations,
audits and evaluations focus not just on improper billing for health care services,
but also the quality of care provided to program beneficiaries. Activities designed
to promote or safeguard beneficiary care included the following.Program
Exclusions: The HHS/OIG excluded 3,275 individuals and entities from participation
in Medicare, Medicaid and other Federal health care programs. Such exclusions
are a vital way to prevent fraud and to protect program beneficiaries. Some of
these exclusions are described in the Program Accomplishments section above. Others
included the following: A Missouri pathologist was indefinitely excluded
after his Wisconsin license was revoked for prescribing drugs over the Internet
without having performed physical examinations of the patients. This physician
held 29 known professional health care licenses from other jurisdictions. Several
of those licenses have also been sanctioned by the appropriate state authorities.
An Alaska physician was excluded for 20 years after being convicted
on 234 counts ranging from forgery and theft of public funds from the Alaska State
Medicaid Program to the unlawful manufacture, distribution, prescription, and
dispensing of a controlled substance. The Superior Court for the State of Alaska
sentenced him to 7 years in prison and ordered him to pay approximately $240,000
in restitution. His license to practice medicine as a physician and surgeon was
revoked in Alaska and Wisconsin.  A Colorado certified nurse aide
(CNA) was excluded for 35 years based on his conviction for sexual abuse. The
court sentenced the CNA to a term of 16 years to life in prison, and the state
revoked his nurse aide certificate. Studies, Audits and Evaluations:
Prospective Payment System: Medicare Part A serves an estimated 40
million beneficiaries. In addition to acute care hospitals, which are reimbursed
under a Prospective Payment System (PPS), Part A covers inpatient care in psychiatric,
rehabilitation, critical access and long-term care hospitals. All such specialty
hospitals are exempt from PPS. Medicare paid approximately $8.7 billion to PPS-exempt
hospitals in 2000. HHS/OIG conducted a study to assess whether PPS-exempt hospital
services were receiving the same oversight as acute care hospital services. The
study found that routine statistical analyses and reviews for medical necessity
and reasonableness were not being conducted of PPS-exempt inpatient services.
Though fiscal intermediaries are free to review medical necessity of services
provided in PPS-exempt settings, there is no funding dedicated to this undertaking.
The study expressed concerns that without dedicated funding and explicit goals,
oversight will likely remain uncertain. Moreover, to the extent that fiscal intermediaries
do review PPS-exempt hospital services, the reviews will occur at the expense
of oversight of other Part A providers, such as nursing homes and home health
agencies. The OIG recommended that CMS ensure oversight of PPS-exempt hospital
services, and CMS concurred.  Study of Mental Health Drug Expenditures:
HHS/OIG evaluated whether Medicaid pays more in net costs for mental health drugs
than do other Federal purchasers -- the 340B Program, Federal Supply Schedule,
Federal Ceiling Price and military payers -- and if so, how much more. Examining
reimbursements for 25 drugs in the ten states that are the largest payers for
Medicaid prescription drugs, HHS/OIG found that price differences resulted in
Medicaid's paying between 11 and 29 percent more than other Federal purchasers.
This means Medicaid paid on average between $47 million and $126 million more
for the same drugs. The HHS/OIG recommended that CMS work with states to pursue
more efficient means of purchasing pharmaceuticals and initiate a review of the
Medicaid rebate program, and also suggested that CMS share this report with the
states.  Study of Payment Variations Between Outpatient Departments
and Ambulatory Surgical Centers (ASC): The HHS/OIG measured the variation
in Medicare reimbursement for services performed in ASCs, and the same services
performed in hospital outpatient departments (OPDs). In most cases (66 percent),
OPD rates for the same service were higher than those paid to ASCs. Because of
these differences in reimbursement, Medicare paid an estimated $1.1 billion more
in program payments in 2001. In addition, the HHS/OIG concluded that Medicare's
list of procedures that may be performed in ASCs contained many that are commonly
or safely performed in physicians' offices. Under CMS regulations, these procedure
codes should be dropped from the list of ASC-covered procedures. Failing to do
so resulted in an estimated $8 to $14 million in additional program payments in
2001. The HHS/OIG recommended that rates between settings should be more uniform,
a recommendation with which CMS concurred. The OIG also suggested that: 1) rates
reflect only the costs necessary for the efficient delivery of health services,
2) timely survey data be used to reevaluate ASC payment rates, and 3) procedure
codes be removed from the list of ASC covered procedures using established criteria.
Outlier Payments: Under Medicare, payments over and above
the usual Diagnosis Related Group (DRG) are available for services associated
with extraordinarily costly inpatient hospital stays. These "outlier" payments
encourage hospitals to treat seriously ill patients, even though the cost will
greatly exceed normal payment rates. Medicare outlier payments totaled about $5
billion in calendar year 2001. The HHS/OIG audited several hospitals within a
hospital chain that aggressively increased its charges and, in so doing, significantly
increased this chain's outlier payments from approximately $350 million in 2000,
to more than $750 million two years later. Under Medicare's regulatory system,
some hospitals increased charges (not necessarily related to increased costs)
and may have caused inequities in the amount of outlier payments made to other
hospitals and harmed uninsured patients. In December 2002, the HHS/OIG issued
an "Early Alert" to CMS, alerting it of the preliminary findings and recommending
that CMS take steps to prevent such a situation in the future. CMS's June 2003
final rule addressed each of OIG's recommendations. In issuing that rule, CMS
estimated that over the past 5 years, this practice caused the Medicare program
to pay $9 billion beyond legislatively mandated target amounts set by CMS.
Disproportionate Share Hospital Payments: States' use of financing
mechanisms designed to maximize Federal Medicaid reimbursement may sidestep Federal/State
matching requirements and cast doubt on whether matching payments are being used
to provide health care services for our vulnerable Medicaid populations. Medicaid
authorizes states to make supplementary payments, called disproportionate share
hospital (DSH) payments, to hospitals for the uncompensated costs of serving disproportionate
numbers of low-income patients with special needs. Such payments may not exceed
the individual hospitals' incurred uncompensated costs. The HHS/OIG continued
its series of reviews in states across the country to assess both the propriety
of DSH claims and to look more broadly at how states' use of DSH payments and
intergovernmental transfers affect the Medicaid program as a whole.  During
2003, reviews in 7 states generated a number of HHS/OIG findings and recommendations.
Several states lacked controls sufficient to ensure DSH payments did not exceed
the actual cost of providing services. In one case, DSH claims were calculated
by a contractor, without sufficient state oversight and verification, resulting
in over $50 million in duplicate claims. Another state made DSH payments that
exceeded hospital limits by more than $500 million because it lacked controls
to ensure payments did not exceed the cost of providing services. In addition,
the state did not properly account for the Medicaid shortfall, failed to verify
the accuracy of the hospitals' self-reported charges, and used a proxy method
to calculate charges for hospitals that did not furnish supporting data. Another
state incurred excess DSH payments of more than $252 million, in part, by not
limiting total operating expenses to amounts allowable under Medicare. Fraud
and Abuse PreventionHIPAA's increased resources have enabled HHS/OIG
to broaden its efforts both to detect fraud and abuse, and to prevent it. Prevention
initiatives, such as those listed below, inform and assist the health care industry
and its patients. Equally important, prevention activities reduce program losses
and enforcement costs.  Industry Guidance: The core of the HIPAA
guidance initiatives is an advisory opinion process through which parties may
obtain binding legal guidance as to whether their existing or proposed health
care business transactions run afoul of the Federal anti-kickback statute, the
civil monetary penalties laws, or the exclusion provisions. During 2003, HHS/OIG
issued 15 opinions. A total of 101 advisory opinions have been issued since 1997.
The advisory opinion process serves to enhance HHS/OIG's understanding of new
and emerging health care business arrangements, and informs the development of
new safe harbor regulations, fraud alerts, and special advisory bulletins. CIAs:
Many health care providers that enter agreements with the government to settle
potential liabilities for violations of the FCA also agree to adhere to a separate
CIA. Under this agreement, the provider commits to establishing a program or taking
other specified steps to ensure its future compliance with Medicare and Medicaid
rules. At the close of 2003, HHS/OIG was monitoring more than 375 CIAs.
Recommendations for Systemic Improvements: Frequently, investigations,
audits and evaluations reveal vulnerabilities or incentives for questionable or
fraudulent financial practices in agency programs or administrative processes.
As required by the Inspector General Act, HHS/OIG makes recommendations to address
these vulnerabilities, and thereby promotes economy and efficiency in HHS programs
and operations. Relying on the independent factual information generated by HHS/OIG,
agency managers recommend legislative proposals or other corrective actions that,
when enacted or implemented, close loopholes and reduce improper payments or conduct.
The net savings from these joint efforts toward program improvements can be substantial.
Many of the studies described throughout this report offered evidence and ideas
supporting proposals for significant cost savings during 2003 and beyond. Examples
of these reviews include the following:  School Based Health Services.
The HHS/OIG conducted a series of reviews focusing on Medicaid payments for school
based health services. These multi-state audits assess whether Medicaid payments
for school-based health services and associated administrative claims were proper.
In 2002, reports were issued relating to 9 states; more are underway. There were
a variety of audit findings and accompanying recommendations for corrective action.
Among these findings were instances in which: Medicaid was billed for costs of
special education in the fee-for-service rates paid exclusively for health services;
services were contracted out at lower-than Medicaid rates and the savings were
not passed along to Medicaid; costs were claimed without necessary documentation;
payments were made to unqualified providers; duplicate claims were not returned
to Medicaid; billings were made to Medicaid for services that were provided free
to other students; there was failure to make required matching payments; claims
were submitted for absent students; improper reimbursement was granted for unallowable
transportation services; and services were provided to ineligible children. Of
course, no single state experienced all of these difficulties. HHS/OIG made recommendations
to recover funds where appropriate, and to enhance oversight to avoid erroneous
or improper payments.  Study of Donor Consent Rates. An OIG
inspection analyzed donor consent data for 190 of the nation's 255 transplant
centers, comparing the number of patients who were medically eligible to be organ
donors and the number of donors for whom consent was actually given. HHS/OIG found
that the consent rate varied widely. Although the national average consent rate
is 51 percent, the study found that of the190 transplant centers reviewed, 18
had a consent rate below 30 percent. If these transplant centers had obtained
consent at the average rate of the remaining 172 centers in the study, namely
54 percent, the 18 centers would have realized 130 more donors  resulting in
an estimated additional 450 life saving organs.  DRG Payment Window.
Under the inpatient prospective payment system, hospitals are reimbursed a predetermined
amount for inpatient services furnished to Medicare beneficiaries depending on
the classification of their illnesses under a diagnosis-related group. Non-physician
outpatient services (such as laboratory tests) rendered up to 3 days before the
hospital admission must be included in the prospective payment. The intent of
the payment "window" was to prevent separate reimbursement for preadmission services.
OIG analyzed a statistical sample of Medicare payments for hospital inpatient
stays and outpatient services that preceded that admission. OIG estimated that,
for 10 diagnosis-related groups, Medicare reimbursed providers about $37 million
for preadmission services rendered 4 to 14 days before admission. Beneficiaries
paid an additional $35 million in coinsurance and deductibles for these services.
OIG therefore recommended that CMS consider proposing legislation to expand the
payment window to cover preadmission services rendered up to 14 days before admission.
CMS agreed, but cautioned that such action could increase beneficiaries' health
risks should providers schedule diagnostic tests outside the 14 day window. CMS
will take such risks into account in proposing legislation to expand the payment
window.  Health Plan Cost Report. The HHS/OIG audited a cost-based
HMO under contract with CMS to provide health services on a prepayment basis to
enrolled Medicare members. Under such a cost-based arrangement, CMS makes an interim
payment each month to the Plan based on a per capita rate for each Medicare member.
The interim payments are reconciled with the HMO's annual cost report. For contract
years 1999 and 2000, the Plan claimed $6.8 million and $6.9 million, respectively,
for additional Medicare costs over the amounts received as interim payments. The
HHS/OIG found that the HMO overstated Medicare claims in years 1999 and 2000 by
a total of approximately $8.2 million. In addition, the organization was not in
compliance with the financial disclosure requirements for related- party administrative
costs totaling about $14 million for both years. The audit recommended that the
organization file amended Medicare cost reports, decreasing the amount claimed
by $8.2 million, and take steps to properly report covered related-party transactions,
and otherwise insure the integrity of its payment systems. The HMO generally concurred.
Focus on DMEAudits and Evaluations:  Semi-Electric
Hospital Beds. When a mattress and bedside rails are provided to a beneficiary
at the same time as a semi-electric hospital bed, the suppliers are required to
bill Medicare using an all-inclusive procedure code. Nationwide, Medicare reimbursement
for this code during calendar year 2000 totaled $189 million. Following up on
an earlier review, the HHS/OIG assessed whether fee schedule amounts for the code
are excessive. To do so, HHS/OIG compared the fee schedule amount for this global
code against the schedule amounts for the codes of the components (e.g., bed,
mattress, side rails), and concluded that using the component coding could result
in estimated annual savings of more than $34 million. Medicare beneficiaries,
Medicaid programs, or supplemental insurers could also save nearly $9 million
in coinsurance. In addition to discontinuing the problematic code, HHS/OIG recommended
that CMS issue a final rule on the application of its inherent reasonableness
authority so that it can be used to adjust the fee schedule amounts for this code.
CMS agreed in part with the recommendations.  Durable Medical Equipment
Orders - Surrogate Unique Physician Identification Number (UPINs). Medicare
beneficiaries are eligible to receive necessary medical equipment when ordered
by a physician and certain non-physician practitioners (here, collectively referred
to as "physicians"). Each physician is assigned a unique physician identification
number (UPIN) by Medicare. UPINs help ensure that Medicare beneficiaries utilize
DME only when authorized by a qualified physician, and allow CMS to aggregate
data by UPIN and identify aberrant ordering practices. DME suppliers must include
the UPIN of the ordering physician on DME claims to Medicare. However, if the
physician has not yet been assigned a UPIN, Medicare permits the supplier to temporarily
use a global surrogate number. The HHS/OIG examined a sample of services for which
a surrogate number was used for claims for the purchase of durable medical equipment,
prosthetics, orthotics, and supplies. The HHS/OIG found that for 61 percent of
services, the ordering physician had a permanent UPIN that should have been included
on the claim; for one-third of these, the physician had the UPIN for at least
5 years. In addition, supporting documentation was missing or incomplete for 45
percent of the sampled services. Medicare paid an estimated $61 million for services
billed with surrogate numbers that had missing or incomplete documentation in
1999. The HHS/OIG recommended that CMS perform targeted reviews of claims and
continue to educate suppliers and ordering physicians about the use of accurate
UPINs, and CMS concurred. Other Judgments and Settlements.In
addition to the significant enforcement actions described in the Program Accomplishments
section of this report, and those immediately above, HHS/OIG conducted or participated
in numerous investigations that resulted in prosecution or settlement during 2003,
involving all aspects of the health care industry. These include:  Kickbacks:
The Balanced Budget Act of 1997 authorized the HHS/OIG to impose civil monetary
penalties against those who pay or receive remuneration in violation of the anti-kickback
statute. During 2003, the HHS/OIG stepped up enforcement efforts under this administrative
authority. Among these actions were:  Cardiology Consultants, P.A.
and its member physicians agreed to pay $611,000 in settlement of their administrative
liability for possible kickbacks and physician self-referrals. The HHS/OIG alleged
that the cardiology group paid hourly fees to physicians who were not members
of their practice group. The contracting physicians monitored cardiac stress tests.
The OIG alleged that the payments to the contracting physicians were in excess
of fair market value and were not commercially reasonable. In addition to the
settlement payment, the group agreed to lower its monitoring fees and entered
into a 3-year CIA.  Inland Empire Lithotripsy, LLC (formerly
Inland Empire Lithotripsy, Inc.) self-disclosed conduct to the HHS/OIG and agreed
to pay $404,538 and enter into a 3-year CIA to resolve its liability under the
Civil Monetary Penalties (CMP) provisions applicable to kickbacks. The HHS/OIG
alleged that Inland, an entity owned by urologists, received payments from a hospital
in excess of fair market value for rental of a lithotripter and provision of lithotripsy
services in exchange for Inland's referral of Medicare patients to the hospital.
The OIG has alleged that Inland terminated some of its physician members in retaliation
for their failure to refer a sufficient number of patients to the hospital.
Five separate settlements were reached with physicians who faced potential
liability under the CMPs applicable to false claims and kickbacks. In each case,
the HHS/OIG alleged that the physician received free samples of the prostate cancer
drug Lupron from TAP Pharmaceutical Products, Inc., and billed at least some of
those samples to Medicare and other payers. Settlement amounts with the five physicians
ranged from $40,000 to $95,000. Each entered into a CIA with the HHS/OIG. Office
of the General Counsel The Office of the General Counsel (OGC) was allocated
$4.53 million in HCFAC funding to support the Department's program integrity activities.
These funds were used primarily for litigation activity, both administrative and
judicial.Accomplishments:Litigation In
nursing home enforcement, OGC opened 568 new administrative cases before the Departmental
Appeals Board (DAB) in FY 2003, an increase of 83 percent over FY 2002. CMPs against
nursing homes totaled over $12 million, resulting from favorable DAB decisions
and negotiated settlements. There were also twenty-five federal court cases opened
as a result of nursing home enforcement actions.False Claims
and Qui Tam Actions OGC reviewed FCA qui tam claims to determine
whether there was a failure to comply with Medicare or Medicaid statutes, regulations,
program instructions, and general policies. For example, in 2003, OGC participated
in FCA and related administrative matters involving HCA, Inc. that resulted in
recovery of $891 million which, when added to previous recoveries, culminated
in a total of over $1.7 billion obtained from the company over the past several
years.Medicare Secondary Payer OGC is involved
in substantial product liability or tort claims brought against the tortfeasors
as self-insured entities and/or their insurance companies. Challenges to Medicare's
right to recover have arisen in the silicone breast implant litigation, In
re Dow Corning Corp. and United States v. Baxter HealthCare (11th Cir.);
the orthopedic bone screw case, Fanning v. United States (3rd Cir); defective
product claim, Thompson v. Goetzmann (5th Cir); medical malpractice lawsuit,
Brown v. Thompson (4th Cir.); beneficiary class action, Nygren. v. United
States and in several other cases.OGC continues successful Medicare
Secondary Payer (MSP) partnership arrangements with various U.S. Attorney's Offices.
In one region, OGC received a record number 1,486 new MSP cases in 2003 and is
handling in excess of 2,000 pending MSP cases. As a result of establishing Medicare's
right to recovery in some 1,160 cases, Medicare collected over $6.92 million.OGC
assisted CMS' implementation of a settlement agreement that resolved the long-pending
McConaghy v. Thompson case in the First Circuit. This permitted CMS to
determine whether Medicare has any MSP claims, and required CMS to be reimbursed
for such claims before receivership assets can be disbursed to individuals.Policy
Guidance and Education.  OGC continues to be significantly involved in
CMS' efforts to upgrade the training of state and federal professionals who survey
long term care facilities for compliance with Medicare requirements. This includes
the presentation of training sessions on the legal aspects of surveying to surveyors
and managers from across the United States and for DOJ and CMS partners.OGC
utilizes established "practice groups" which identify national issues requiring
policy clarifications and which identify the most effective and efficient means
of litigating these matters. Practice groups are currently in place for long term
care enforcement cases and bankruptcy matters. OGC continues to work with
a U.S. Attorney's Office to assure laboratories whose Clinical Laboratory Improvement
Amendments (CLIA) certificates are suspended/revoked do not continue testing in
violation of CMS action. Administration
on AgingIn 2003, the Administration on Aging (AoA) was allocated $3.25
million in HCFAC funds to support the Senior Medicare Patrol (SMP) Projects, and
to maintain effective partnerships for detecting and reporting error, fraud and
abuse. AoA provided technical assistance and support to the 57 SMP projects, and
national community education efforts, with a particular focus on vulnerable populations,
persons with low health literacy, culturally diverse backgrounds and persons living
in rural areas. The SMP projects provided direct and widespread education to older
Americans through an extensive network of senior volunteers, designed to increase
recognition and reporting of potential errors and fraud in the Medicare and Medicaid
programs.Accomplishments: National Technical Assistance
Resource Centers: AoA supported four national resource centers that provided
SMP grantees and the aging network with materials, training, and other forms of
technical assistance to enhance their efforts to educate hard-to-reach older Americans.
The Centers focused on outreach strategies for educating minority, rural, low-literacy,
and non-English-speaking individuals in health care fraud issues. AoA also solicited
applications for one consolidated National Consumer Protection Technical Resource
Center to become operational in FY 2004. This new center will result in streamlined
communications with the grantees and enhance replication of successful practices
nationwide. Regional Health Care Fraud and Abuse Control Program
Conferences: AoA convened three regional conferences in Alexandria, Virginia;
Dallas, Texas; and Seattle, Washington to provide guidance and technical assistance
to SMP grantees; offer networking opportunities with other Federal partners, and
exchange information on best practices and other innovative activities.
Senior Medicare Patrol Projects: AoA developed a new program announcement
that expanded the pool of eligible applicants to faith-based organizations and
Federally recognized tribes. This action increased the program from 51 projects
in 45 states to 57 projects in 50 states plus the District of Columbia and Puerto
Rico. SMP projects recruit and train retired individuals to educate seniors in
their communities about how they can help prevent and detect potential Medicare
and Medicaid error, fraud, and abuse. In 2003, the projects trained approximately
8,500 senior volunteers who directly educated 505,000 Medicare beneficiaries in
their communities through over 140,000 training sessions and one-on-one encounters.
This training included how to read their Medicare Summary Notices, fraud awareness,
and working with medical providers when potential errors are discovered among
other topics. As a result of beneficiary educational efforts, the percent of beneficiaries
familiar with efforts to reduce health care fraud, error and abuse has increased
by 35 percent since 1997 and the number of beneficiaries who read their Medicare
Summary Notices (MSN) increased by 21.4 percent. After SMP training, over 90 percent
of beneficiaries indicated they would be willing to call their provider to discuss
an error on their MSN.  Consumer Awareness: AoA maintained
a web site to provide information about Medicare and Medicaid error, fraud and
abuse targeted to older Americans and community-based professionals who serve
aging adults and their families. The site promotes consumer awareness and facilitates
the sharing of information and best practices between Medicare and Medicaid beneficiaries
and AoA's grantees and partners. In addition, HCFAC funding supported the design
and distribution of personal health care journals and education brochures and
videos in English, Spanish, and Mandarin Chinese. A particular emphasis was made
to disseminate this information to AoA's nationwide network of aging service professionals,
through a variety of television, radio, and print media events.  Beneficiary
Complaints and Resulting Recoupments: Over the 12 month period ending June
30, 2003, beneficiaries reported almost 14,000 complaints to the SMP projects.
In addition, the OIG reports documentation of over $743,000 in Medicare funds
recouped during this period as a direct result of complaints referred to CMS contractors
by SMP projects. Self-reported savings to other payers (primarily Medicaid) were
approximately $23 million during this period. While it is not possible to directly
track all of the cases reported and dollars recovered through these community
education activities, approximately $103 million, primarily in Medicaid funds,
has been recouped by the program from its inception in 1998 through June 30, 2003,
as a result of documented complaints. Centers
for Medicare and Medicaid ServicesIn 2003, the Centers for
Medicare and Medicaid Services (CMS) was allocated $23.37 million to fund a variety
of projects related to fraud, waste and abuse in the Medicare and Medicaid programs.
Of this amount, $10 million was specifically dedicated to combat fraud in the
Medicaid program.CMS has increased its efforts to use advanced technology
to detect and prevent fraud and abuse and to ensure that CMS pays the right providers,
the right amount, for the right service, on behalf of the right beneficiary. CMS
fraud, waste, and abuse projects are described below.Payment Accuracy Measurement
(PAM) and State Children's Health Insurance Plan (SCHIP) Error Rate Pilot: HCFAC
funding will allow for twenty-seven states to participate in the third year of
the PAM project, which develops payment accuracy measurement methodologies and
conducts pilot studies to measure and reduce state Medicaid payment errors.During
the third year of the PAM project, each of the 27 states will pilot test the CMS
Model in their Medicaid and/or SCHIP programs. The CMS Model has been designed
to produce state-specific payment error rate estimates, and through weighted aggregation,
national level payment error rate estimates for Medicaid.Accomplishments
In response to the June 2003 all-state solicitation, CMS received applications
from 27 states to participate in the third year of the PAM Project. All 27 states
were awarded grants in September 2003. These states are: Alabama, Arizona, Arkansas,
California, Colorado, Delaware, Florida, Idaho, Indiana, Iowa, Kentucky, Louisiana,
Massachusetts, Minnesota, New Mexico, North Carolina, North Dakota, Oklahoma,
South Carolina, South Dakota, Texas, Utah, Virginia, Washington, West Virginia,
and Wyoming. Ten of these states previously participated in the project.
Twelve of the states will pilot test the CMS Model in their Medicaid program;
three States will pilot test the model in their SCHIP program; and fifteen States
will pilot test the model in both their Medicaid and SCHIP programs. Approximately
half of these 27 states will pilot test the model in both the fee for service
and managed care components of their Medicaid and SCHIP programs.Automating
Medicaid State Plans: In 2003, HCFAC funds were allocated to Medstat, Inc.,
to research options for automating the Medicaid State Plan process, from plan
amendment creation at the state level through the submittal and approval process
at the regions and central office. This allows CMS to understand the current state-of-the-art
choices for document management, information flow and analysis, and the timing
and resources necessary to achieve these goals. A Medicaid State Plan database
will allow broad and timely access to program information for CMS, the states
and other partners.  Waiver Management System Database: In 2003,
HCFAC funds were allocated to update and improve the current 1915(c) Waiver Management
System Database (WMSD), including a web-based application for WMSD and to improve
state long term care data collection and analysis in order to support financial
oversight and accountability.  Annuities: In 2003, HCFAC funds
were allocated to the CNA Corporation for a research project titled, "Collection
and Analysis of Information and Analysis of State and Federal Policies Concerning
the Use of Annuities to Shelter Assets in State Medicaid Programs." The project
uses both qualitative and quantitative research methods to develop a comprehensive
picture of states' experience with the use of annuities as an asset-sheltering
device by Medicaid applicants and their spouses. This project also uses a methodology
to estimate the cost of this practice to the Federal government and the states.
The research includes in-depth interviews and data collection in selected
states and counties; review of litigation and administrative appeals pertaining
to annuities; focus groups with seniors regarding awareness, attitudes, and likely
use of various financing or asset sheltering mechanisms, including annuities to
cover the costs of long term care; information-gathering from representatives
of insurance industry groups, elder law attorneys, consumer advocates and others,
regarding the annuities marketplace, sales practices, the secondary market for
annuities, and related issues.  Financial Management Data Redesign
Project (FMDRP): HCFAC funding was used to develop and enhance an integrated
financial management tool that links existing CMSO data systems and tools. This
tool was developed through a contract with Enterprise Technology Partners (ETP).
The linked tools contain critical financial, statistical, administrative and other
data.  This tool will allow CMSO to better focus its financial management
reviews, targeting service areas of high financial exposure and supporting the
key Administration goal of improved financial management for the Medicaid program.
After CMS has reviewed and tested this tool, it will be rolled out to regional
offices.  Medicaid Audits: In 2003, HCFAC funds were allocated
to CMS to support a series of special Medicaid audits to be conducted by the HHS/OIG
through an Interagency Agreement with CMS. A total of 16 audits were undertaken
in states and issue areas specified by CMS. The targeted areas included: upper
payment limits, school-based claims, adult rehabilitation services, home and community
based services, and Medicaid administrative costs reported by state agencies other
than the Medicaid single state agency.  Medicare/Medicaid Data Match
Expansion Project: In 2003, HCFAC funds were allocated to the CMS to expand
upon a joint Medicare and Medicaid data-matching project. The data-matching project
was developed to examine the health care claims data from health care programs
that share many common beneficiaries and providers and for aberrancies indicative
of potential fraud or abuse that may not be evident when provider billings for
either Medicare or Medicaid are viewed in isolation. The data match enables analysts
and investigators to see the "whole picture" which, heretofore, had not been possible.
Continued operation of the California data-matching project has resulted
in an estimated $71 million worth of recoupments and savings. More than 90 potential
investigations have been opened thus far by program safeguard contractors, and
are in various stages of development. Given the overall success of the pilot project
in California, CMS is developing the Medicare-Medicaid data match projects in
Texas, Illinois, North Carolina, Florida, New Jersey and Pennsylvania, Ohio and
Washington, as well as continuing operation and maintenance of the original project
in California.  Medicare + Choice Steering and Discrimination Project:
In 2003, HCFAC funding was allocated to the Division of Program Accountability
and Payment (DPAP) to review the Medicare + Choice (M+C) plan benefit packages
that may deny, limit, or condition the coverage or furnishing of benefits to individuals
eligible to enroll in an M+C plan offered by an M+C organization on the basis
of any factor that is related to health status. Statutory and regulatory provisions
authorize CMS to develop and implement methods for detecting health screening
and steerage of Medicare beneficiaries. Over the past several years the M+C benefit
packages have markedly changed and considerable concern has been raised by beneficiaries,
Congress, and others about the potential for health screening through the types
of benefits and cost-sharing structures offered to beneficiaries. CMS wants to
ensure that groups are not being discriminated against or steered into or out
of certain plans based on their health status.   FUNDING
FOR DEPARTMENT OF JUSTICE United
States AttorneysThe ninety-three United States Attorneys and their
assistants serve as the nation's principal prosecutors of federal crimes, including
crimes committed by health care providers. Similarly, civil attorneys in the United
States Attorneys' Offices (USAOs) are responsible for bringing affirmative civil
cases to recover funds that federal health care programs have paid as a result
of fraud, waste, and abuse, with support in those cases designated by the Civil
Division for joint handling. USAOs also handle most criminal and civil appeals
at the federal appellate level.In 2003, the USAOs were allocated $30.4
million dollars in HCFAC program funds to support civil and criminal health care
fraud and abuse litigation as exemplified in the Program Accomplishment's section,
infra. The USAOs dedicated substantial resources to combating health
care fraud and abuse in FY 2003. HIPAA allocations have supplemented those resources
by providing dedicated positions for attorneys, paralegals, auditors and investigators,
as well as funds for litigation of resource-intensive health care fraud cases.In
addition to the staff positions funded by HCFAC, EOUSA's Office of Legal Education
(OLE) uses HCFAC funds to train AUSAs and other Department attorneys, as well
as paralegals, investigators, and auditors in the investigation and prosecution
of health care fraud. In 2003, OLE conducted courses and presentations on health
care fraud, including the Health Care Fraud and Affirmative Civil Enforcement
seminar; the Health Care Fraud Coordinator's Conference (Civil and Criminal),
the Health Care Fraud Symposium, the Health Care Fraud Special Topics Conference,
and Justice Television Network broadcast trainings on the medical privacy provisions
of HIPAA.Civil ProsecutionsIn 2003, the USAOs had 1,574 health
care fraud criminal matters pending, involving 2,496 defendants. The USAOs filed
criminal charges in 362 cases involving 531 defendants, and obtained 437 federal
health care related convictions in 2003. USAOs receive referrals of health care
fraud cases from a wide variety of sources, including the FBI, the HHS/OIG, Medicaid
Fraud Control Units in State Attorney Generals' Offices, and other federal, state,
and local law enforcement agencies. In FY 2003, USAOs received new case referrals
involving 1,352 defendants, and obtained convictions of 437 defendants. Examples
of just a few of the criminal cases USAOs brought this past year are set forth
in the Program Accomplishments section of this report.Criminal ProsecutionsThe
USAOs use affirmative civil enforcement litigation to recover monies wrongfully
taken from the Medicare Trust Fund and other taxpayer-funded health care systems,
and to ensure that the federal health care programs are fully compensated for
the losses and damages resulting from such thefts. The FCA is one of the most
important tools the USAOs use for these purposes. The FCA subjects those who knowingly
present false claims for payment to the government, including health care providers
who submit claims to federal health care programs, to treble damages and civil
penalties.USAOs receive civil health care fraud referrals from a variety
of sources, principally the federal investigative agencies that refer criminal
cases, and by means of qui tam complaints. Under the FCA, a qui tam
plaintiff (known as a "relator") must file his or her complaint under seal in
a United States District Court, and serve a copy of the complaint upon the United
States Attorney for that judicial district, as well as the Attorney General. USAOs
routinely assign civil AUSAs to every qui tam case filed in their districts,
as well as any matter referred by a law enforcement agency. At the end of FY 2003,
the USAOs opened 870 new health care fraud matters (including qui tam
actions), and had 1,277 matters pending. In order to maximize resources, Civil
Division attorneys may become actively involved and participate with the USAOs
in qui tam cases involving more than one district and with potential
recoveries substantially over one million dollars. USAOs generally remain responsible
in all other qui tam cases for investigating the relator's allegations
and, where appropriate, litigating and/or settling the case. In 2003, USAOs filed
or intervened in 231 civil health care fraud cases. The Program Accomplishments
section includes just a few examples of the many civil matters that USAOs successfully
resolved in 2003.Civil DivisionIn
2003, the Civil Division was allocated $14.5 million in HCFAC funds to support
civil health care fraud litigation. (The Civil Division also administers the Nursing
Home Initiative allocation of $1 million.) Civil Division attorneys pursue civil
remedies in health care fraud matters, working closely with the USAOs, the FBI,
the HHS/OIG and the Department of Defense, CMS, and other federal and state law
enforcement agencies. Cases involve providers of health care services, supplies
and equipment, as well as carriers and fiscal intermediaries, that defraud Medicare,
Medicaid, TRICARE, the Federal Employees Health Benefits Program (FEHBP), and
other government health care programs.AccomplishmentsIn
2003, the Division opened or filed a total of 230 health care fraud cases or matters.
In addition to these new efforts, the Civil Division pursued 442 existing cases,
often working with Assistant United States Attorneys. A significant number of
these health care fraud cases have the potential for particularly high damages.
Civil Division attorneys were actively involved in the recoveries described in
the Program Accomplishments section, above.The Civil Division is also staffing
and providing a coordination function in the FCA investigations alleging pharmaceutical
pricing fraud against government health care programs. These matters span multiple
districts and present myriad legal and factual issues that require substantial
coordinating efforts of the Civil Division. Since 2001, six cases involving allegations
of pricing fraud by pharmaceutical manufacturers against Medicaid and Medicare
have been settled by the government for a total recovery of $1.66 billion.In
addition to their litigating responsibilities, Civil Division attorneys have played
a role in coordinating and presenting the DOJ's views to HHS as its offices interpret
and apply the Anti-Kickback statute and Stark laws prohibiting physician self-referral.
For example, the Division has provided assistance to the HHS/OIG in issuing its
advisory opinions regarding the Anti-Kickback statute and fraud alerts, and to
CMS in connection with the issuance of CMS' final regulation on the physician
self-referral prohibition. In addition, the Civil Division, working with other
components of the Department of Justice, has provided views on the Pharmaceutical
Industry Compliance Guidance.In addition to these accomplishments, the
Department's Nursing Home Initiative, coordinated by the Civil Division, promotes,
among other things, increased prosecution and coordination at Federal, state and
local levels to fight abuse, neglect, and financial exploitation of the nation's
senior and infirm population. The Department is pursuing a growing number of cases
under the FCA and other theories involving providers' egregious "failures of care."
It also is in the forefront in developing the field of elder abuse and neglect
forensics to improve detection, reporting, training, investigation, and prosecution
in this emerging area.Civil Division attorneys provide guidance and training
to government attorneys to assure the Department's continued compliance with the
Health and Human Services Standards for Privacy of Individually Identifiable Health
Information, commonly known as the HIPAA privacy rule.Also, the Civil Division
continues to co-chair, with the Criminal Division, the Health Care Fraud Working
Group to coordinate the health care fraud enforcement activities of all concerned
federal and state agencies. Criminal
DivisionIn FY 2003, the Criminal Division was allocated $1.58 million
in HCFAC program funds to support criminal health care fraud litigation. The Fraud
Section of the Criminal Division develops and implements white collar crime policy
and provides support for the Federal white collar enforcement community. The Fraud
Section supports the USAOs with legal and investigative guidance and, in certain
instances, provides trial attorneys to prosecute criminal fraud cases. For several
years, a major focus of Fraud Section personnel and resources has been to investigate
and prosecute fraud involving federal health care programs.The Fraud Section
has provided guidance to FBI agents, AUSAs and Criminal Division attorneys on
criminal, civil and administrative tools to combat health care fraud, and worked
on an interagency level through: coordinating large scale multi-district
health care fraud investigations;  providing frequent advice and written
materials on confidentiality and disclosure issues arising in the course of investigations
and legal proceedings regarding medical records;  monitoring and coordinating
DOJ's responses to major regulatory initiatives, legislative proposals, and enforcement
policy matters. Examples include issues such as provider education and regulation,
medical records privacy, Internet sales of drugs and medical products and expansion
of the Medicare program to provide prescription drug benefits;  reviewing
and commenting on numerous requests for advisory opinions submitted by health
care providers to the HHS/OIG, and consulting with the HHS/OIG on draft advisory
opinions per the requirements of HIPAA;  working with CMS officials
to promote more effective use of technologies and high-tech approaches for combating
health care fraud and abuse. Examples include co-sponsoring with CMS two regional
conferences and working with several USAOs to coordinate with CMS during its transition
to Program Safeguard Contractors for conducting anti-fraud detection work in the
Medicare program;  preparing and distributing to all USAOs and FBI
field offices periodic updates on major issues, interagency initiatives, and significant
activities of DOJ's health care fraud component organizations as well as periodic
summaries of recent cases;  organizing and overseeing, in conjunction
with the Civil Division, the National Level Health Care Fraud Working Group to
address fraud in health care and managed care; and  participating
in interagency working groups formed to address illicit Internet sales of drugs
and medical products and nursing home fraud and resident abuse. The Fraud
Section has responsibility for handling and coordinating complex health care fraud
litigation nationwide and is currently involved in national investigations of
hospitals, medical equipment suppliers, and vocational rehabilitation and health
care management services, as well as other health care providers. An example of
a successful Fraud Section prosecution in 2003 follows:  Two chiropractors
who operated a medical clinic and an operator of a management consulting services
company were convicted of conspiracy to commit health care fraud and of health
care fraud in connection with a $5 million fraudulent billing scheme. The defendants
conspired to increase the chiropractic clinic's income by defrauding health care
insurers by using marketing techniques to attract patients with "good" insurance.
The chiropractic clinic then provided health care services based on insurance
coverage rather than medical needs, and deceived Medicare and other insurers into
believing that the treatment and services being billed were medically necessary
and were provided under the direction and supervision of a medical doctor. The
conspirators were thereby able to evade strict insurance coverage limits on chiropractic
services. The management consulting services operator, who de facto controlled
the chiropractic clinic through management contracts and lease agreements, also
was convicted of engaging in a money-laundering conspiracy and of substantive
money laundering. In addition to its litigating responsibilities, the Fraud
Section conducted numerous training sessions and workshops for Department attorneys
and investigators, executive branch health care program integrity administrators,
and state and local law enforcement personnel on the health oversight and law
enforcement exceptions to the HIPAA medical records privacy regulations which
became effective in April 2003. In partnership with the FBI, the Fraud Section
prepared and disseminated HIPAA medical records privacy training materials to
more than 16,000 state and local law enforcement agencies nationwide. The Section
also developed a special electronic mail account to disseminate, upon request,
additional supplemental HIPAA medical records privacy training and guidance materials
prepared for state and local law enforcement agencies and has since responded
to more than 1,200 state and local law enforcement agency requests for the supplemental
training materials. Civil Rights Division
In FY 2003, the Civil Rights Division was allocated $1.98 million
in HCFAC funds to support civil rights division litigation activities related
to health care fraud. The Special Litigation Section of the Civil Rights Division
pursues relief affecting public, residential health care facilities and has established
an Institutional Health Care Abuse and Neglect Initiative to carry out the Department's
initiative to eliminate abuse and grossly substandard care in Medicare and Medicaid
funded nursing homes and other long-term care facilities.The Section plays
a role in the HCFAC Program and is the sole DOJ component responsible for the
Civil Rights of Institutionalized Persons Act, 42 U.S.C. § 1997 (CRIPA). CRIPA
authorizes investigation of conditions of confinement at state and local residential
institutions (including facilities for persons with developmental disabilities
or mental illness, and nursing homes) and initiation of civil action for injunctive
relief to remedy a pattern or practice of violations of the constitution or federal
statutory rights. The review of conditions in facilities for the mentally ill
and for persons with developmental disabilities, and nursing homes comprises a
significant portion of the program. The Special Litigation Section works collaboratively
with the USAOs around the country and with HHS.AccomplishmentsAs
part of the Department's Institutional Health Care Abuse and Neglect Initiative,
and as an enhancement to the Department's ongoing CRIPA enforcement efforts, the
Special Litigation Section staff preliminarily reviewed conditions and services
at 38 nursing home facilities in 19 states during FY 2003. The task in preliminary
inquiries is to determine whether there is sufficient information supporting allegations
of unlawful conditions to warrant formal investigation under CRIPA. The Section
reviewed information pertaining to areas such as: abuse and neglect, medical and
mental health care, use of restraints and seclusion, fire and environmental safety,
and placement in the most integrated setting appropriate to individual needs.
In FY 2003, the Special Litigation Section opened CRIPA investigations of two
nursing homes: A. Holly Patterson Geriatric Center in Uniondale, New York, and
Nashville Metropolitan Bordeaux Hospital in Nashville, Tennessee. Staff participated
in ongoing nursing home investigations, including the investigation of Laguna
Honda Hospital and Rehabilitation Center in San Francisco, California, the largest
public nursing home facility in the United States, and Bradley County Health Care
and Rehabilitation Center in Cleveland, Tennessee. The Division sent letters
of findings to appropriate public officials for our investigations of Banks-Jackson-Commerce
Medical Center and Nursing Home in Commerce, Georgia; Mercer County Geriatric
Center in Trenton, New Jersey; Nim Henson Geriatric Center in Breathitt County,
Kentucky; Reginald P. White Nursing Facility in Meridian, Mississippi; and Claudette
Box Nursing Facility in Mt. Vernon, Alabama. These investigations involved on-site
evaluation tours with expert consultants, review of documentary evidence, and
interviews of staff. Section staff continued to monitor our agreement in Bergen
Regional Medical Center in Paramus, New Jersey. In addition, the staff initiated
CRIPA investigations of facilities for persons with developmental disabilities
including: Conway Human Development Center in Conway, Arkansas; Woodbridge Developmental
Center in Woodbridge, New Jersey; and Boston Higashi School in Randolph, Massachusetts.
Special Litigation Section staff conducted tours of the Conway and Woodbridge
facilities, accompanied by expert consultants, reviewed documents, and interviewed
facility staff. The Section continued its investigations of the following residential
facilities for the developmentally disabled: Agnews and Sonoma Developmental Centers
in San Jose and Eldridge, California; Pinecrest and Hammond Developmental Centers
in Pineville and Hammond, Louisiana; Landmark Learning Center in Opa-Locka, Florida;
Holly Center in Salisbury, Maryland; Rainier Residential Rehabilitation Center
and Frances Haddon Morgan Center in Buckley and Bremerton, Washington; and Woodward
and Glenwood Resource Centers in Woodward and Glenwood, Iowa. In many of these
investigations, negotiations toward settlement are continuing regarding the correction
of remaining deficient conditions. In some of these matters, the Section is reviewing
voluntary compliance to improve conditions. In 2003, the Section found that
conditions and practices at two state-operated facilities for persons with developmental
disabilities violate the residents' federal constitutional and statutory rights.
Those facilities are: Oakwood Communities in Somerset, Kentucky, and New Lisbon
Developmental Center in New Lisbon, New Jersey. The Section continued its investigations
of the following mental health facilities: John Umstead Hospital, Dorothea Dix
Hospital, Cherry Hospital, and Broughton Hospital in Butner, Raleigh, Goldsboro,
and Morgantown, North Carolina; and Metropolitan State Hospital in Norwalk, California.
The Section sent a letter of findings concerning the investigation of the Children
and Adolescent programs at Metropolitan State Hospital during the fiscal year.
The Section staff also conducted compliance reviews in ongoing CRIPA cases
involving a variety of facilities. In each of these cases, staff reviewed compliance
with the terms of previously filed agreements and court orders.      A.
Facilities for persons with developmental disabilities: Southbury Training School
(United States v. Connecticut (D. Conn.)); Embreeville Center (United States v.
Pennsylvania (E.D. Pa.)); Arlington Developmental Center (United States v. Tennessee
(W.D. Tenn.)); Clover Bottom Developmental Center, Greene Valley Developmental
Center, and Harold Jordan Center (United States v. Tennessee (M.D. Tenn.)); Southern
Wisconsin Developmental Center and Central Wisconsin Developmental Center (United
States v. Wisconsin (W.D. Wis.)); Centro de Servicios Multiples de Camaseyes,
Centro de Servicios Multiples Rosario Bellber and community-based services (United
States v. Commonwealth of Puerto Rico (D. P. R.)); and Ft. Wayne Developmental
Center and Muscatatuck Developmental Center (United States v. Indiana (S.D. Ind.)).
B. Facilities for persons with mental illness:
Hawaii State Hospital, the children and adolescent residential services at Queens
Medical Center and Kahi Mohala Behavioral Treatment Center and community-based
mental health services (United States v. Hawaii (D. Haw.)); Guam Adult Mental
Health Unit (United States v. Territory of Guam (D. Guam)); Pilgrim Psychiatric
Center (United States v. New York (E.D. N.Y.)); and Memphis Mental Health Institute
(United States v. Tennessee (W.D. Tenn.)).      C.
Other Facilities: New Mexico School for the Visually Handicapped (United States
v. New Mexico (D. N. Mex.)). In addition to its law enforcement activities regarding
health care fraud activities, the Special Litigation Section is responsible for
representing the Department and the Civil Rights Division on an inter-agency committee
on elder care issues. The Section has also participated in public education and
outreach by speaking and participating at conferences on quality of care in health
care facilities.   APPENDIX
Federal Bureau of InvestigationMandatory
Funding   "There are hereby appropriated from
the general fund of the United States Treasury and hereby appropriated to the
Account for transfer to the Federal Bureau of Investigation to carry out the purpose
described in subparagraph (C), to be available without further appropriation (I)
for fiscal year 2003, $114,000,000." Under HIPAA,
the FBI was budgeted $114 million in 2003 for health care fraud enforcement. This
money was used to support 878 positions (507 Agent/371 Support), an increase of
68 positions over FY 2002 (42 Agent, 26 Support.). As the FBI has increased the
number of agents assigned to health care fraud investigations, the number of pending
investigations has increased more than 400 percent, from 591 cases in 1992 to
2,262 cases through 2003. FBI-led investigations resulted in 414 criminal health
care fraud convictions and 523 indictments and informations being filed in FY
2003. With health care expenditures rising at three times the rate of inflation,
it is especially important to coordinate all investigative efforts to combat fraud
within the health care system. The FBI is the primary investigative agency involved
in the fight against health care fraud that has jurisdiction over both the federal
and private insurance programs. With more than $1 trillion being spent in the
private sector on health care and its related services, the FBI's efforts are
crucial to the success of the overall program. The FBI leverages its resources
in both the private and public arenas through investigative partnerships with
agencies such as the HHS/OIG, Food and Drug Administration, Defense Criminal Investigative
Service, Office of Personnel Management, Internal Revenue Service and various
state and local agencies. On the private side, the FBI is actively involved with
national groups, such as the National Health Care Anti-Fraud Association (NHCAA),
the Blue Cross and Blue Shield Association and the Coalition Against Insurance
Fraud, as well as many other professional and grass-roots efforts to expose and
investigate fraud within the system. Health care fraud investigations are among
the highest priority investigations within the FBI and rank behind only Public
Corruption and Corporate Fraud in the FBI's White Collar Crime Program Plan. In
addition to being a partner in the majority of investigations listed in the body
of this report, the FBI last year launched the Outpatient Surgery Initiative to
combat the growing problem of fraudulent surgeries performed at certain outpatient
facilities in Southern California. This nationwide scheme has drawn participants
from 48 of the 50 states who have traveled to California to have unneeded surgery
in exchange for a cash kickback, and has resulted in billings to the insurance
companies in excess of $500 million. The FBI partnered with the NHCAA to collect
intelligence on the problem, and launched a nationwide investigation. As part
of the initiative, the FBI teamed with a media outlet to profile the matter on
television in an effort to stem the tide of willing participants and expose the
fraud to the public. The majority of HIPAA funding received by the FBI is used
to pay personnel costs associated with the 878 funded positions. Funds not used
directly for personnel matters are used to provide operational support for major
health care fraud investigations and national initiatives focusing on pharmaceutical
fraud, outpatient surgery centers, and transportation providers. Further, the
FBI continues to support individual investigative needs such as the purchase of
specialized equipment and expert witness testimony on an as-needed basis.
GLOSSARY
The Account-The Health Care Fraud and Abuse Control Account ACE-Affirmative
Civil Enforcement AoA-Administration on Aging ASBTF-Assistant Secretary
for Budget, Technology and Finance ASC-Ambulatory Surgical Centers AUSA-Assistant
United States Attorneys CIA-Corporate Integrity Agreement CLIA-Clinical
Laboratory Improvement Amendments CMP-Civil Monetary Penalties CMS-Centers
for Medicare and Medicaid Services CMSO-Center for Medicaid and State Operations
CNA-Certified Nurse Aide CRIPA-Civil Rights of Institutionalized Persons
Act DAB-Departmental Appeals Board DME-Durable Medical Equipment DOJ-The
Department of Justice DRG-Diagnosis Related Group DSH-Disproportionate Share
Hospital DPAP-Division of Program Accountability and Payment ECG-Transtelephonic
Electrocardiogram ESRD-End Stage Renal Disease FBI-Federal Bureau of Investigation
FCA-False Claims Act FDA-Food and Drug Administration FEHBP-Federal Employees
Health Benefits Program FMDRP-Financial Management Data Redesign Project GSK-GlaxoSmith
Kline GAO-General Accounting Office HCFAC-Health Care Fraud and Abuse Control
Program HHS-The Department of Health and Human Services HI-Hospital Insurance
Trust Fund HIPAA, or the Act-The Health Insurance Portability and Accountability
Act of 1996, P.L. 104-191 HMO-Health Maintenance Organization M+C-Medicare
+ Choice MSN-Medicare Summary Notices MSP-Medicare Secondary Payer NHCAA-National
Health Care Anti-Fraud Association OGC-The Department of Health and Human Services,
Office of the General Counsel OIG-The Department of Health and Human Services,
Office of Inspector General OLE-Office of Legal Education, located within the
Executive Office for the United States Attorneys OPD-Outpatient Departments
PAM-Payment Accuracy Measurement PPS-Prospective Payment System The Program-The
Health Care Fraud and Abuse Control Program Secretary-The Secretary of the
Department of Health and Human Services SCHIP-State Children's Health Insurance
Plan SMP-Senior Medicare Patrol TAG-Technical Advisory Group TENS-Transcutaneous
Electrical Nerve Stimulation USAO-United States Attorney's Office UPIN-Unique
Physician Identity Number WMSD-Waiver Management System Database
1. Hereafter, referred to as the Secretary.2.
In addition, over $380 million from cases settled in FY 2003 was collected
and disbursed in FY 2004 and will be reported in detail for that period. 3.
Also known as the Hospital Insurance (HI) Trust Fund. All further references
to the Medicare Trust Fund refer to the HI Trust Fund. 4. In
2003, DOJ collected, or continued to hold in suspense, additional funds from health
care fraud cases and matters that were not distributed to the affected agencies
and/or the Account in 2003 due to: (i) ongoing litigation regarding relator shares
in qui tam cases that will affect the amount retained by the Federal government;
and (ii) receipt of funds late in the year that were then processed in FY 2004.5.
In addition, HHS/OIG obligated $1.7 million in funds received as "reimbursement
for the costs of conducting investigations and audits and for monitoring compliance
plans" as authorized by section 1128C(b) of the Social Security Act, 42 U.S.C.
§ 1320a-7c(b).